No. 20-5324

IN THE
SUPREME COURT OF THE UNITED STATES

JEREMIAH YBARRA-PETITIONER
vs.
UNITED STATES OF AMERICA-RESPONDENT
ON PETITION FOR RE-HEARING

Jeremiah Ybarra
Pro-Se Litigant
FMC ROCHESTER
Reg#55024-280
PMB 4000
Rochester, Minnesota, 55903-4000

RECEIVED
NOV 12 2020
SUPREME COURT

U.S

FACTS. OF THE CASE
At trial, the Judge first prejudiced the petitioner by stating to
the jury that"the petitioner had no burden to prove his or her
innocence or to present any evidence or to testify's'. (Please see
Case 4:16-cr-00523-PRM Document 117 filed 11/17/17 page 19 of 168).
Petitioner feels that this was a CONSTITUTIONAL violation of his
rights due to having the evidence to prove his innocence and to
put into question the government's case. This hindered the petitioner in the fact that the jury was not allowed to see or hear the
facts of what really happened.
At trial, agent Bustamante stated that petitioner contacted him
about meeting at the Flying J in Fort Stockton, Texas for a buy of
narcotics. (Please see Case 4:16-cr-00523-PRM Document 117 filed
11/17/17 page 32 of 168).
Petitioner requested the phone records of this agent to show that
petitioner never called Bustamante but that Bustamante contacted
petitioner.asking petitioner to go to the Flying J.
At trial Agent Bustamante stated that he never identified the
other people involved (Please see Case 4:16-cr-00523-PRM Document
117 page 37 line 3 and 4). Petitioner has it in his pre-sentence
report that the people involved were identified as one Stella Crespin
and one Blake Ramey.So how were they not identified? Another question is why were they not present for the trial if they were able to
also identify the petitioner and what he supposedly had done on that
day?
Another question is how was the supposed narcotics submitted into
evidence when they were never put into a heat-sealed bag the way
it is suppoed to be with the agent that acquired the evidences initials?

At trial Agent Bustamante stated that a female driving a maroon
Nissan was the person who had the meth. (Please see Case 4:16-cr00523 Document 117 filed 11/17/17 page 47 of 168 lines 5 through 12)
So if that person was the one that brought the suppoed narcotics
why would she and the male passanger be questioned or charged as
well? Then Agent Bustamante stated that the female was the one who
'supplied the suppoed narcotic.(Please see Case 4:16-cr-00523PRM
Document 117 filed 11/17/17 page 48 of 168 lines 1 through 9).
So once again if the female was the supplier, why would they only
charge the petitioner with the alleged offense?
At trial Agent Bustamante stated that he only contacted the
petitioner.(Please see Case 4:16-cr-00523-PRM Document 117 page 49
of 168 line 5 through 10). Petitioner once again would have showd
that he was not the one who called the female but it was the Agent
Bustamante that called her. If petitioner would have been given the
phone records of the Agent he would have been able to show that the
Agent was lieing.
The Agent Bustamante states that there were pictures being taken
throughout the operation but there were never any pictures of the
actual hand off or who gave the agent the supposed narcotics.(Please
see Case 4:16-cr-00523-PRM Document 117 page 53 of 168 line 5 through
20). So if they were taking pictures, why were there no pictures
of the petitioner handing off or taking the money?
At trial the second Agent Mr.Ruckman stated that what they expected was for the petitioner to show up with crystal meth. then he
further states that a woman showed up with crystal meth or that
somebody showed up in a red Nissan with the crystal meth.(Please
see Case 4:16-cr-00523-PRM Document 117 filed 11/17/17 page 64 of
168 line 19 through 25).
11

once again, if there were others involved and were there at the time
of the supposed offense, why were all people involve not there to
testify about the fact of what really happened on that day?
Then agent Ruckman states that there was a female and a male invo=
lved.(Please see Case 4:16-cr-00523-PRM Docuument•117 filed 11/17717
page 65 of 168 line 1 through 6).
Petitioner was charged with pure methamphetamine in the indictment.
How was the governemtn able to charge the petitioner with pure anything if they never even had the lab report stating that it was what
they say it was? At trial, agent Ruckman stated that or verified
should it be said that the lab report was not returned until march,
so how was it charged as pure meth if there was no lab report?.
(Please see Case 4:16-cr-00523-PRM Document 117 filed 11/17/17 page
66 of 168 line 9 through 10).
Petitoner was not ever in possession or was representing anything
that was refrenced to any narcotics.
8. At trail, the'chemist that works for the DEA stated that she did
Qualitative tests that are presumptive tests that tell about what
exactly the substance consists of. The chemist stats that she did
an infrared spectroscopy test and a color test. Then she did a
gas chromatography test coupled with a mass spectromatry test and
to check the purity was a high liquid chromatography.(Please see
Case 4:16-cr-00523-PRM Document 117 filed 11/17/17 page 119 of 168
line 11 through 18).
Petitioner would like to show that the test done was not a certain
test to show that it was 99% pure due to the fact that the test to
be done to prove the kind of methamphetamine is a more sophisticated
"plane polarized light"test, or the "optically active column" test
which no such test was done.
iii

Once again at trial the question was asked as to why the lab report
was not returned until March of 2017.(Please see Case 4:16-cr-00523-PRM Document 117 filed 11/17/17 page 121 of 168 line 11 through 18).
How CONSTITUTIONAL is it when a judge states "The guilt of a defendant in a criminal case may be established without proof that the
defendant personally did every act constituting the offense alleged".
That means that a knowing spectator can be charged with just knowing
someone that sells a controlled substance? That is unCONSTITUTIONAL
initself. At the begining of the trial the judge states the elements
of the alleged offense which in the end changes from possession with
intent to distribute to aiding and abetting possession with intent
to distribute. I cannot stress enough about the other people that
could have been there to testify about what really happened. It was
a wrong jury instruction to give to the jury which it also amended
the indictment.
In the governments closing argument, the prosecutor stated that
petitioner was being charged with possession with intent to distribute.(Please see Case 4:16-cr-00523-PRM Document 117 filed 11/17/17
page 147 of 168 line 7 and 8).
The prosecutor also bolsters the agents and the chemist when
he states that the jury should believe the testimony.and believe they
are reliable.(Please see Case 4:16-cr-00523-PRM Document 117 filed
11/17/17 page 150 of 168 line 1 through 4).
On the affidavit that is present as Appendix A, the prosecutor stated
that he did not present the case to the Grand Jury. So how can a _
citizen be indicted without it being presented to the Grand Jury?
He also states that he doesnt know what witnesses the petitioner
is refering to when in fact he knows that I had asked for the people
iiii

that were mentioned in the police report and also the actual people
that were there. Then on the affidavit made by prior counsel, she
states on(Appendix B) that the prosecutor was sworn in as an expert
witness at the Grand Jury presentation of the case so how can a
prosecutor be a witness at the Grand Jury and then prosecute the
case? She states that the prosecutor was a witness about the purity
of the supposed controlled substance. How if the lab report was not
even turned in until the month of March.?
There is just to many violations of petitioners rights that petitioner needs this Honorable Court to exercise it supervisory power and
review this case. Please consider the follwing argument and case
law.

GROUNDS FOR PETITION
Ground One: The innocence that is suffering due to the violation
of CONSTITUTIONAL rights that are supposed to be
protected by the people elected to protectthose
rights afforded under the CONSTITUTION.
Ground Two: The prosecutorial misconduct by not presenting the
case to the. Grand Jury and also the prosecutor inferring himself into the case by being an expert witness.
Ground Three: The evidence that was never investigated by defense
counsel.
Ground Four: The question as to why the others involved in the
alleged offense were never cross-examined or even
charged ini:the offense.
Ground Five: The unfairness of petitioners trial.
Ground Six: The denial of the discovery in the case.
CERTIFICATE THAT THE GROUNDS ARE LIMITED TO INTERVENING
CIRCUMSTANCES OF SUBSTANTIAL OR CONTROLLING EFFECT OR TO OTHER
SUBSTANTIAL TO GROUNDS NOT PREVIOUSLY PRESENTED
I, Jeremiah Ybarra, certify that the circumstances in this case
are limited to intervening of this Honorable Court due to the
violations of the rights that are afforded and protected by the
CONSTITUTION of the United States. There are also substantial
grounds that were not presented previously due to the lack of
resources that petitioner had access to. Petitioner has requested
relief from the sentencing court as well as the court of appeals.
Both courts have denied every effort by petitioner to present the
facts of the case and how he was prejudiced by the trial court as
well as the ineffectivness of his trial counsel. Petitioner has
continued to claim his innocence in the alleged offense that he

(1)

was charged with. Petitioner has a pending §2255 motion in the
district court that has not even given a report and recommendation
It"has been two years and still Co this day the district court
has denied and stone walled petitioner in gaining the relief he
has been requesting. This Honorable Court can use its Supervisory
Authority and examine this case for the violations that petitioner
is presenting.
PRESENTMENT OF GROUND ONE
Petitioner is innocent of the alleged offense that he is being
charged with. At trial, there was no evidence that petitioner sold
anything to the Undercover agent. There were, other people that
were there at the scene of the alleged offense. Petitioner requested
these other people to verify the story that the agent was stating
the truth of the events that happened on that day in question. If
there were others that were there at the time of the alleged offense, would it not be logical to ask those people present questions
of what really happened? These other people were never charged or
cross-examined to get the truth.GPetitioner was not afforded a way
to prove his innocence at trial and show the jury that what the
agent was saying was a lie. The magistrate judge and the trial
judge denied the petitioners request for the discovery on the case.
Preventing discovery is a violation of the Sixth Amendment. The r
right to prepare a defense includes the right to adequate discovery.
Brady v. Maryland, 373 U.S. 83, 83 S.Ct. 1194..., The petitioner
requested that an indipendent testing ba done on the supposed conr-trolled substance and was denied this request or the defense counsel failed to make the request. Either way, petitioners right was
violated on the denial on several issues that he presented.
—(2)

PRESENTMENT OF GROUND TWO
There was prosecutorial misconduct by the government and also
false statments made by the prosecutor. Petitioner has an affidavit by the prosecutor stating that the case was never presented by
him to the Grand Jury,- Petitioner also has an affidavit by prior
defense counsel that the prosecutor inferred himself in the case
by stating the purity of the supposed controlled substance to the
Grand Jury after knowing that there was not a lab report given until
after the indictment. How can a prosecutor not present the case to
the Grand jury and then infer himself as an expert witness and then
also prosecute the case? [...] The Fifth Amendment provides that '_;No
person shall be held to answer for a capitol or otherwise infamous
crime, unless on a presentment or indictment of a Grand Jury, except
in cases arising in the land or naval forces ...Russ611 v. United

States, 369,U.S. 749, 82 S.Ct. 1038(1962). The Constitutional provisionfthat a trial may be held in a serious federal criminal case
only if a Grand Jury has first intervened reflects:centuries of antecendent development of common law, going back to the Assize of Clarendon in 1166. "The,:grand jury is an English institution, brought
to this country by the early colonists and incorporated in the
CONSTITUTION by the founders.[...] The basic purpose of the English
grand jury was to provide a fair mathod for instituting criminal proceedings against persons believed to have commited crimes". Costello

v. United States, 350 U.S. 359,362, 76 S.Ct. 406,408, 100L.Ed 397.
"The United States Attorney is the representative not of an ordinary
party to a controversy, but of sovereignty whose obligation to govern
impartially is a compelling as its obligation to govern at all;and
whose interest, therefore, in a criminal prosecution'is not that it
(3)

shall win a case, but that justice shall be done. As,such, he is in
a peculiar and very definite sense the servant of the law, the twofold aim of which is that guilt shall not escape or innocence suffer.
He may prosecute with earnestness and vigor - indeed, he should do so,
but, while he may strike hard blows, he is not at liberty to strike
foul ones. It is as much his duty to refrain from improper methods
calculated to produce a wrongful conviction as it is to use every
legitimate means to bring about a just one." See Donnelly v. DeChris-

toforo, 416 U.S. 637, 40 L.Ed 2d 431, 94 S.Ct. 1868).
PRESENTMENT OF GROUND THREE
Trial counsel never investigated the others that were involved nor
did she file any other motions to defend petitioner. The lab reportt
was never shown to the petitioner or was the recording that was heard
by the jury at trial ever investigated as to whom was actually speaking in the recording. The right 'of an accused to have compulsory
process for obtaining witnesses in his favor stands on no lesser footing than the other Sixth Amendment rights. In re Oliver, 333 U.S.257.

68 S.Ct. 499, 92 L.Ed 682(1948),it described what it regarded as the
most basic ingredients of the Due Process of Law. The right to offer
the testimony of witnesses, and to compell their attendance, if necessary, is in plain terms the right to present a defense, the right to
present the defendant's version of the facts as well as the prosecution's to the jury so it may decide where the truth lies. Just as an
accused has the right to confront'the prosecution's witnesses for the
purpose of challenging their testimony, he has the right to present
his own witnesses to establish a defense. Petitioner requested that
the others that were there on the day in question be there to testify
about what really happened. Counsel never requested these other witn(4)

esses to coaberate what petitioner was trying to prove at trial.
Where counsel fails to investigate and interview promising witnesses,
and therfore "hats] no reason to believe they would not be valuable
in securing [defendant's]release,?counsel's inaction constitutes
neglegence, not trial strategy. United States ex rel. Cosey v. Wolff,
727 F.2d 656, 658 n.3(7th Cir. 1994).;[omitted]. There is also the
fact that counsel never investigated the lab report or the chain of
custody. There were only pictures of the supposed controlled substance
and was never pictured in a heat-sealed bag the way it is to be in
a controlled substance case There are also inconsistancies in what
was stated in the police report and what the agents testified to at
trial. Petitioner requested that the supposed controlled substance be
tested by an independent lab. This request was not adhered to by counsel? In cases involving a controlled substance, "a concomitant part
of the examination or inspection [is] the right of the accused to
have an independent chemical analysis performed on the seized substance”
United States v. Gaultney, 606 F22d 540, 545(5th Cir. 1979). The recording that was presented to the jury was never examined by the analyist that examined the other recording that were shown to be edited
and falsified by the agents that were involved. A witnesses voice
identification is subject to the same due process analysis as other
forms,of identification. See United States v.. Alvaraz,860 F.2d 801,
810(7th Cir. 1988).. In determining the admissibility of identification
testimony, "reliability is the linchpin," Brathwaite, 432 U.S. at 114,
97 S.Ct. 2243,
if it
-‘

and an identification procedure is unduly suggestive

(5)

if it "give[s] rise to !a very substantial likelihood of irreparble
miSidentification,'"Degaglia, 913 F.2d at 376(quoting United States
v. Carrasco, 887 F.2d 794, 806(7th Cir.1989). To access the:reliability of a voice identification, we apply thesame factors articularted in Biggers, and we must weigh them against the "corruptive effect
of the suggestive identification." Alvarez, 860 F.2d at 810(quotations omitted).
PRESENTMENT OF GROUND FOUR
Like before, the others that were involved as being witnesses at the
scene were never questioned, charged or cross-examined as to what really happened on the day in question. Petitioner requested that he be
allowed his phone torretrieve the evidence needed to prove that he was
not the one who gave anything to anyone. Petitioner has the text messarc:
ges where the others involved stated that no controlled substance was
ever given to the agent but was "rock salt". There is also the fact
that agents threatened the others involved not to be present at trial.
There was a police report that stated there were two other people that
were-present at the scen at the time of the alleged offense. That report
was not shown to the jury. There are also statments of the witnesses ,
at trial that state there were others involved but not arrested or
questioned as to what happened. CONSTITUTIONALLY effective counsel must
develop trial strategy in the true sense-not what bears a false label
of '_'strategy"-based on what investigation reveals witnesses will actually testify to, not based on what counsel guesses they might say in
the absense of a full investigation. Ramonez v. Berghuis, 490 F.3d 482
(CA6 2007).

PRESENTMENT OF GROUND FIVE
Petitioners trial was unfair and petitioner was prejudiced when his
rights to discovery and the, right to defend himself and present evidence
on his own behalf to show that he was actually innocent of the alleged
offense issreason cenoughto show that he needs help from this Honorable
Court. The denial of discovery, the denial of presenting the others
involved, and not calling the informant as well was unfair in petitioners trial. [C]ounsel has a duty to make reasonable investigations or to
make a reasonable decision that makes particular investigations unnecessary. In any ineffectivness case, a particular decision not to investigate must be discretly assessed for reasonableness in all the circumstances, applying a heavy measure of deference to counsel's judgement's.
Strickland v. Washington, [passim], 104 S.Ct. 2052(1984).
PRESENTMENT OF GROUND SIX
The denial of discovery is a violation of the Fifth and Sixth Amendment
of the United States CONSTITUTION. Petitioner requested the phone records of the Agent involved (Bustamante).to prove that he was the one that
called the others involved. There is also the fact that petitioner has
text messages where the person that was harrasing and asking on a constant basis for help to find someone to sell them drugs. Petitioner was
not predisposed to find people to sell anyone anything. Even at trial
the government witnesses state that the petitioner refused to find
other people to sell them drugs. Plus the police reports were never
shown to the petitioner. There were multiple officers at the scene on
the day in question and there was only one police report. Plus, the
statments made on the police report were not identical to the offered
testimony by the officers.
(7)

PETITION FOR REHEARING IS PRESENTED IN GOOD FAITH AND NOT FOR DELAY
I, Jeremiah Ybarra, certify that this petition ist.presented in good
faith and is not for delay. I have tryed to be heard in a court that
can actually look at the evidence and review what was presented in trial.
I am innocent of the offense that was alleged against me. I will continue to fight my case until I am able to be heard and be able to present
the evidence to prove that the conviction is unlawful and unCONSTITUTIONAL
due to the discovery that was with held before trial and after as well.
I am asking that this Honorable Court just look at this case due it being a public interest for the people of this Nation. There is no justification in what happened to me. This is not just happening to me but to
others as well. There are citizens of this Nation that are being trapped
by the people that are sworn in to protect the innocent and try the guilty.
So there is evidence that the court abused its descretion and also its
power in allowing the government to gain a wrongful conviction. I have
lost my mother through this ordeal and am about to lose my father due
to my older siblings not being able to care for him. I am asking just
for this Honorable Court ,to look at the facts and make. there own judgement. I have been waiting for the district court to decide on my §2255
petiton and still to this day the magistrate judge has not made a report
and recommendation. It is going on three years now. Why is it that to
convict someone it takes less time and to gain justice it takes for ever?
I am not guilty of the alleged offense. I do have the evidence that will
prove that I am innocent and even if I am not able to gain relief while
being unlawfully imprisoned, I will continue to fight when I am released
to prove that I have been telling the truth all along. The agents involved in my case are corrupt and for this to go on uncorrected or even
investigated is an injustice and will also prove that there is no justice.
All I am asking is for the CONSTITUTION to be upheld the way our forefathers wanted it to be.
(8,)

CONCLUSION
Wherefore premisses considered, petitioner requests that this
Honorable Court GRANT this Motion in all respects and at least
review the case for consideration of the facts that are being presented
by the petitioner. There ie a Public interest in this case due to the
fact that innocence is suffering by the people who are supposed to
protect that innocence and there is a Grave.Miscarriage of Justice in
this case. IT IS SO PRAYED.
Dated: 10-31-2020.

Respectfully Submitted,
Ybarra
R g#55 24-280
PRO SE LITIGANT
FMC ROCHESTER
PMB 4000
Rochester, MN, 55903-4000

CERTIFICATE OF SERVICE
I, Jeremiah Ybarra, declare under the penalty of perjury that this
furegoidgcmotion is true and correct to
also certify that this true and correct
mailbox located at this facility on the
deposited into the United States. Postal
to this Honorable Court.

the best of my knowledge, I
copy was placed into then
31st day of October to be
Service to be hand delivered

Je mi nYbarra
R #5 24-280-

(9 )

Case 4:16-cr-00523-DC Document 166-1 Filed 05/07/20 Page 1 of 2
APPENDIX

UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF TEXAS
PECOS DIVISION
UNITED STATES OF AMERICA,
Plaintiff,
4:19-CV-6 DC
4:16-CR-523

v.
JEREMIAH YBARRA,
Defendant.

AFFIDAVIT OF MONTY KIMBALL,
IN REPONSE TO 2255 MOTION
-Before me, the undersigned notary, Monty Kimball, personally appeared and stated under oath as
follows:
My name is Monty Kimball. I am above 18 years of age and I am competent to make this
affidavit. The facts contained in this affidavit are within my personal knowledge and are true and
correct.
I was the Assistant United States Attorney that prosecuted the defendant, Jerimiah Ybarra
("Ybarra"), in the above styled and numbered cause. I understand Ybarra is making claims that
certain actions I took in the course of the prosecution were improper or unconstitutional.
I read Ybarra's 2255 motion and it appears he asserts two charges related to my handling of
his prosecution: (1) I knew others were involved in distributing the controlled substances but
failed to investigate why the others were not arrested; and (2) I interrupted a meeting between
Ybarra and his counsel and threatened, Ybarra with filing an enhancement if he went to trial.
Apparently, Ybarra bases his first allegation on the fact that he was the only defendant in his
indictment. That fact does not support his allegation that others were not prosecuted. In fact,
several targets of the investigation were arrested, indicted and convicted, either in Federal court

Case 4:16-cr-00523-DC Document 166-2 Filed 05/07/20 Page 1 of 5
- APPENDIX B:

AFFIDAVIT
Texas
County of Brewster
State of

Mary Ellen Smith, of lawful age, being first duly sworn upon her oath, affirms the
following:
My name is Mary Ellen Smith.
I am an attorney, licensed in the State of Texas, State Bar number
00785002. I am admitted to practice law in the Western District of Texas
and in the Fifth Circuit Court of Appeals.
I represented Jeremiah Ybarra, from the date of my appointment, through
trial, and verdict. At Mr. Ybarra's request, my representation was
terminated before sentencing, and new counsel was appointed, Mr. Damien
Castillo.
I have attached, as an exhibit, the CJA-20 which has a detailed accounting
of the work performed for Mr. Ybarra. The details were noted
contemporaneously, with the tasks performed.

Issues Raised by Case 4:16-CR-00523 -DC Document 129-1 .
Page 13 Asserts that I, as Defense Counsel was not allowed to raise evidence to support
the defenses of Entrapment and Entrapment by Estoppel.
I was allowed to present evidence to support the Defense of Entrapment. One, Mr.
Ybarra testified to the fact that he was asked by a friend to put these "buyers" together
with drugs to sell to truck drivers. DEA agent Ruckman testified to the fact that Mr.
Ybarra had declined the invitation to find cocaine and meth for the "buyers".
We raised the evidence of entrapment sufficiently to obtained an Jury Instruction on
entrpament.
Mr. Ybarra's testimony weakened the defense of Entrapment. During many client
conferences (Please reference attorney's CJA-20 time sheets) with Mr. Ybarra, he
described being pressured by a childhood friend to allow a meth dealer to contact Mr.
Ybarra to arrange for the meth seller to acquire meth to sell to truckers. On the witness
stand in his own defense, Mr. Ybarra did not describe this sequence of events, but rather,
that just thought it was a good idea.
Page 15 Failure to object to the Court's exclusion of evidence. Or to the Court's

Case 4:16-cr-00523-DC Document 166-2 Filed 05/07/20 Page 2 of 5

APPENDIX B
refusal

to exclude evidence. I don't know what trial court rulings Mr. Ybarra refers to.

Page 16. The evidence of possession with intent to distribute the meth included:
undercover police witnesses, additione drugs in his hand, to constitute possession. in
hopes of avoidinal DEA witnesses who were on the scene, and Mr. Ybarra's own
testimony.
Mr. Ybana endeavored to avoid physically handling the methamphetamine, believing
that he had to have the drugs in his hand, to constitute possession. Mr. Ybana's previous
attorney had given Mr. Ybarra copies.of the applicable- law of posses
sion. I reiterated the applicable law.
Law enforcement witnesses and Mr. Ybana testified that he put together the meth sale.
He arranged to have meth brought to his buyers, who, as far as Mr. Ybana knew at the
time, were acquiring meth through him in order to sell it to truckers. ["Buyers" refers to
Task Force Officers who set up the sting, whom Mr. Ybarra believed to be buyers.]
These events were described in texts, recorded phone calls, personal conversations
(recorded), and Mr. Ybana's testimony.
Page 15. Mr. Ybarra and I invited AUSA Monty Kimball to meet with Mr. Ybarra, to
re-convey the government's offer. This was by informed consent of Mr. Ybarra. Mr.
Ybana did not say anything to Mr. Kimball. Mr. Kimball was fairly aggressive in his
exhortation that he was holding open the plea offer without enhancement. The reconveyance of the offer was to let Mr. Ybarra know that, despite several acceptance
deadlines having passed, the government was still offering an unenhanced charge. I
consulted extensively with. Mr. Ybarra about having Mr. Kimball meet with us.
Page 16. Evidence of Intent to Distribute. Mr. Ybarra himself testified to his actions
which included distribution of the drugs. Our defense was an affirmative defense,
acknowledging the drug sale, while asserting the defense of Entrapment.
Mr. Ybarra gathered the methamphetamine to be given to the [TFO] Buyers, and Ybarra
was physically present for the exchange. He physically facilitated the exchange of
money for methampthetamine.
Page 17. Judge Martinez allowed evidence in support of the Entrapment Defense. I was
allowed to bring it up in opening statement, argue it in closing, and call both Mr. Ybarra
to the stand, as well as Mr. Yban-a's probation officer.
A witness whom Mr. Ybana believed would support his claim of pressure and duress,
when interviewed, told me, quite vehemently, that there was no duress, no entrapment,
and only voluntary actions of Mr. Ybarra. This was Mr. Ybarra's counselor. When I
interviewed her about testifying to Mr. Ybana's rehabilitation, in the context of the

Case 4:16-cr-00523-DC Document 166-2 Filed 05/07/20 Page 3 of 5
APPENDIk B

defense, she told me that Mr. Ybarra acted voluntarily and that "he is playing
you [me]". I decided not to call her as a witness because she adamantly disbelieved
the notion of Mr. Ybarra having been persuaded, unduly, by the Task Force or by a
childhood friend of Ybarra's, who first approached Ybarra about helping some guys get
meth to sell to truckers.
entrapment

place, I called Mr. Ybarra's probation officer, who gave very supportive,
detailed, documentation of Mr. Ybarra's successful behavior on probation.

In Ms. Mata's

Pg. 18. The trial Judge allowed me to put on evidence of entrapment, sufficient to
obtain a Jury instruction on entrapment. Without evidence to raise the defense of
entrapment, I could not have obtained the Jury instruction. This was entrapment by
surrogate, about which I conducted immense legal research.
Mr. Ybarra and I spent many hours talking about how the childhood friend had played
on childhood loyalties, when asking Mr. Ybarra to talk with the Buyers looking for a
meth supply, who turned out to be Task Force Officers. In client conferences, we
delved into the special pull of childhood loyalties that propelled Mr. Ybarra to launch on
this several month effort to help these men get methampthetamine. This special pull
was to be the heart and soul of Mr. Ybarra's testimony. However, Mr. Ybarra's testimony
about his reasons for agreeing to find drugs for the Buyers was devastating to his
defense. He did not tell the jury about the childhood ties, the emotional pressure
exerted by his friend. He answered vaguely about his reasons for trying to facilitate a
meth (and cocaine) sale. His testimony undermined the viability of his defense of
Entrapment.
Page. 19: The young woman who brought the methamphetamine to the sale point was
Cece Crespin. There was no proof that she was an informant nor a cooperating witness.
She was not arrested, but neither was Mr. Ybarra arrested at the scene of this
methamphetamine sale. In fact, Mr. Ybarra continued to try to connect the Buyers with
Methamphetamine. Had Crespin been working as a cooperating witness or confidential
informant, the Government would have had a duty to reveal this. I filed the appropiate
discovery motions to urge this duty. I investigated the whereabouts of Ms. Crespin and
obtained a subpoena for her to testify. I hired a private process server, and neither of us
could locate Ms. Crespin to serve the subpoena. She could not have been forced to
testify to her involvement with the drug sale.
Mr. Yban-a believed that there was ample evidence of the communications and urgings
of his childhood friend on Mr. Ybarra's cell phone. I moved the Court to allow me to
hire an expert to make sure that I was getting everything on Mr. Ybarra's cell phone that
was in the custody of the DEA. I received authorization, and the expert drove from
Dallas to Alpine to dump and copy the phone. There were no calls or texts on that

Case 4:16-cr-00523-DC Document 166-2 Filed 05/07/20 Page 4 of 5

APPENDIX B

phone from or to the childhood friend. Whatever phone held those texts and calls was
not in the custody of the DEA nor of Mr. Ybarra. Mr. Yban-a had given or sold the
phone before being arrested.
The childhood friend was not a participant in the crime. His involvement ended when
he persuaded Mr. Ybarra to take the calls from the Buyers, or to call the Buyers. The
childhood friend had nothing else to do with Ybarra, nor with the events that unfolded,
as Ybarra sought to obtain methamphetamine and cocaine for the Buyers , over a period
of months. There were no communications between the childhood friend and Ybarra on
the latter's cell phone.
Page 20: Again, Mr. Ybarra misaprehends the legal definition of Possession.
Page 20: There was one police report. I don't usually submit police reports to the jury.
They harm the defense.
Page 21. Grand Jury Transcripts. There were no Grand Jury Transcripts. I told Mr.
Ybarra this. According to AUSA Monty Kimball, and e testified, after qualifying as an
expert witness, to the lab work and the findings, include quantity and chemical analysis
(purity). Part of the affirmative defense of Entrapmfairly regular practice in this
Division, the Grand Jury testimony was not recorded.
Chain of Custody: The chain of custody was properly demonstrated and attested to.
The chemist who handled the methampthetamine testified, after qualifying as an expert
witness, to the lab work and the findings, include quantity and chemical analysis
(purity).
Grand Jury Transcript. There was no transcript nor recording of the Grand Jury
testimony. This is fairly regular practice in this Division, that the Grand Jury testimony
not be recorded.

FURTHER AFFIANT SAYETH NOT:

Case 4:16-cr-00523-DC Document 166-2 Filed 05/07/20 Page 5 of 5
APPENDIX B

Subscribed and sworn to or affirmed before me on this 7 th day of May, 2020.

LORI FRANCO
12114.,
Notary Public, State of Texas
>;:c.
3•
52,94 r- Comm. Expires 01-17-2021
Notary ID 3306667
1112:i %

Signature of Notary Public

